              PUBLIC
             RELEASE


                   MINORITY BUSINESS
                DEVELOPMENT AGENCY

Community-Based Enhanced Services Pilot
  Project Award Not Effectively Monitored

    Final Audit Report No. EDD-9406-8-0002 / June 1998




      Office of Audits, Business and Trade Audits Division
U.S. Department of Commerce                                                                                   Final Report EDD-9406
Office of Inspector General                                                                                                June 1998

                                                 TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE OF AUDIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

          MBDA FAILED TO EFFECTIVELY MONITOR
          AND ASSESS CEBO’S PERFORMANCE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

                    A.         Lack of Oversight and Communication by MBDA Management . . . . . . . 4

                    B.         Lack of Performance Assessments Reports . . . . . . . . . . . . . . . . . . . . . . . . 5

                    C.         Lack of Source Sampling Verifications . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                    D.         Lack of Review of Supplemental Performance Goals . . . . . . . . . . . . . . . . 7

                    E.         Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

          RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

                    MBDA’s Response to Draft Report and OIG Comments . . . . . . . . . . . . . . . . . . . 8

ATTACHMENT: MBDA’s Complete Response to the Draft Report
U.S. Department of Commerce                                                     Final Report EDD-9406
Office of Inspector General                                                                  June 1998

                                    EXECUTIVE SUMMARY

We performed a performance audit of the Minority Business Development Agency’s monitoring
and management of Cooperative Agreement No. 03-10-960001-01 to Empower Baltimore
Management Corporation (EBMC) and the Council for Economic and Business Opportunity,
Inc. (CEBO) in Baltimore, Maryland. This award was a pilot project of the Community-Based
Enhanced Services (CBES) initiative, an alternative to the Minority Business Development
Center program. In the opinion of MBDA management, the CBES initiative would enable
MBDA, with the participation of joint venture partners, to deliver management and technical
assistance services to a specific minority business community. Under this pilot program, the
Department of Commerce awarded $240,469 for the project to EBMC--with CEBO as the
subrecipient--to establish a comprehensive minority business assistance program in the Baltimore
Metropolitan Statistical Area. If the pilot project succeeded, MBDA planned to identify other
markets to receive services under a nationwide CBES initiative.

In the past, MBDA has funded a variety of pilot and demonstration projects (also known as
special projects) to (1) provide special services that were not otherwise available, (2) demonstrate
or test unique or innovative approaches and methods for helping minority business persons
succeed in the marketplace as entrepreneurs, or (3) promote minority business formation.
Special projects have usually been funded non-competitively out of the agency’s discretionary
funds.

Clearly, such projects have the potential to be very useful to MBDA and the minority business
enterprise (MBE) community. But too often in prior OIG reports, we have found that MBDA’s
special projects have not successfully enhanced the agency’s efforts to foster and strengthen
minority businesses as envisioned.

This is not to suggest that the only way for a pilot project to be “successful” is to achieve all the
goals and objectives as envisioned. In fact, the opposite may also be true: MBDA and the MBE
community can learn a great deal and clearly benefit in some instances when a pilot project does
not achieve its stated goals and objectives if the project clearly demonstrates (1) how not to do
something or (2) what will not work. But it has been our experience that for any “pilot” project
to be successful - - whether meeting the stated goals and objectives or not - - it must be closely
monitored and this monitoring must be thoroughly documented. Pilot projects are “special”
projects and hence require “special” monitoring. Funded as a cooperative agreement, MBDA
was, in fact, authorized and expected to have substantial involvement to make this pilot project
succeed. During our audit of this project, however, we did not find the essential documentation
to confirm that MBDA effectively monitored and managed the CBES/CEBO pilot project.

MBDA’s monitoring and assessment of the pilot project was, in our opinion, ineffective because
MBDA did not fully comply with its own basic written policies and procedures when it did not,
for example, (1) consistently ensure oversight by the designated project monitors and provide the
necessary communication with CEBO officials, (2) prepare and submit quarterly performance


                                                  i
U.S. Department of Commerce                                                   Final Report EDD-9406
Office of Inspector General                                                                June 1998

assessment reports, (3) perform source sampling verification of CEBO’s documentation, or (4)
adequately review CEBO’s progress in completing supplemental performance goals established
by senior MBDA management.

In a separate report on our financial and performance audit of CEBO, we previously concluded
that CEBO did not fully meet its responsibilities to provide quality business services to
Baltimore-area minority-owned businesses.1 Effective monitoring by MBDA of CEBO’s
progress might have stimulated CEBO to take immediate corrective actions. Thereafter, if
CEBO did not take the necessary corrective actions, MBDA and the Department could have
recommended suspension or termination of the award and precluded further expenditures.

On page 8, we recommend that the Director, Minority Business Development Agency, take the
following actions with respect to future awards under the CBES initiative (or other pilot
projects):

1.     Assign staff with appropriate technical and business expertise who will, at a minimum,
       provide the level of oversight and monitoring outlined in the MBDA Handbook.

2.     Ensure that future pilot projects are effectively assessed and evaluated in a timely and
       thorough manner to ascertain whether to continue the project.

3.     Develop project-specific performance measures and reporting requirements to reflect the
       nature of the business development assistance.

In its response to the draft report, MBDA acknowledges that its traditional monitoring
procedures are critical to effective management of project awards, and MBDA agreed to
implement the recommendations. MBDA states that it has recently devised a set of clear
performance measurement criteria that it will henceforth apply to all MBDA awards. MBDA
will also require oversight by project staff and adherence to the Project Monitoring Handbook for
future pilot awards.

In responding to our draft report, MBDA took exception to our observation that it did not
effectively monitor the project and outlined a number of steps taken to monitor the project. In
our opinion, the steps did not constitute sufficient and effective project oversight of a pilot
project awarded under a cooperative agreement. Such oversight would have included the
consistent communication with CEBO officials, the assessment reports, and the source sampling
verifications. The recommendations stated above are needed to promote the success of future
pilot projects and awards.



       1
        Empower Baltimore Management Corporation and Council for Economic and Business
Opportunity, EDD-9406-7-0001, September 22, 1997.


                                                ii
U.S. Department of Commerce                                                 Final Report EDD-9406
Office of Inspector General                                                              June 1998

                                      INTRODUCTION

The Office of Inspector General has completed its performance audit of the Minority Business
Development Agency’s monitoring and management of Cooperative Agreement No. 03-10-
960001-01 to Empower Baltimore Management Corporation (EBMC) and the Council for
Economic and Business Opportunity, Inc. (CEBO) in Baltimore, Maryland. This award was a
pilot project of the Community-Based Enhanced Services (CBES) initiative, an alternative to the
Minority Business Development Center program. Under this pilot program, the Department of
Commerce awarded $240,469 for the project to EBMC--with CEBO as the subrecipient--to
establish a comprehensive minority business assistance program in the Baltimore Metropolitan
Statistical Area (MSA).

Performance audits are objective and systematic examinations of evidence for the purpose of
providing an independent assessment of an organization, program, activity, or function in order
to provide information to improve accountability and facilitate decision-making by parties with
responsibility to oversee or initiate corrective action. By identifying systemic strengths and
weaknesses, the OIG will help the Department’s managers implement more efficient and
effective operations to better serve its customers.

                              PURPOSE AND SCOPE OF AUDIT

Our audit was conducted in conjunction with the financial, compliance, and performance audit of
EBMC’s and CEBO’s activities under the CBES pilot project,2 in part based on concerns
expressed by representatives of MBDA, the Department’s Office of Executive Assistance
Management, and CEBO. Our audit objective was to determine if MBDA effectively monitored
and assessed CEBO’s progress during the project.

We reviewed applicable laws, regulations, policies, and procedures concerning MBDA's
monitoring and evaluation procedures. These included MBDA’s Executive Order 11625; Office
of Management and Budget Circulars A-110, Uniform Administrative Requirements for Grants
and Other Agreements with Institutions of Higher Education, Hospitals and Other Non-Profit
Organizations, and A-122, Cost Principles for Non-Profit Organizations; DAO 203-26,
Department of Commerce Grants Administration; MBDA’s Project Monitoring and Evaluation
Handbook; MBDC’s Program Competitive Application Kit Package; MBDA’s Narrative
Reporting Requirements Manual; MBDA’s Program Announcement; and the general and special
award conditions for the pilot project. As discussed in our findings, MBDA was not in
compliance with DAO 203-26, Project Monitoring and Evaluation Handbook, and the Narrative
Reporting Requirements Manual.



       2
       Empower Baltimore Management Corporation and Council for Economic and Business
Opportunity, EDD-9406-7-0001, September 22, 1997.


                                                1
U.S. Department of Commerce                                                   Final Report EDD-9406
Office of Inspector General                                                                June 1998

We also evaluated MBDA's management controls over the progress of the pilot project and found
that MBDA officials with responsibility for monitoring and assessing CEBO’s progress did not
effectively meet their responsibilities under departmental and MBDA policies. During our audit,
we relied upon computer-processed data products generated by MBDA during our financial,
compliance, and performance audit of the pilot project. While we did not assess the relevant
general and application controls, we conducted other substantive tests of the data during the audit
to ensure that it was sufficiently reliable. We examined pertinent documents and records from
February through June 1997, and interviewed key EBMC and CEBO staff in Baltimore and
MBDA and OEAM staff at headquarters in Washington, D.C.

The audit was conducted in accordance with generally accepted government auditing standards
and was performed under the authority of the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, Inspector General, dated May 22, 1980, as amended.

                                        BACKGROUND

Under Executive Order 11625, the Minority Business Development Agency provides business
assistance to persons who are members of groups that the agency determines to be socially or
economically disadvantaged, and to business concerns owned and controlled by such individuals.
MBDA started, on a pilot basis,3 its Community-Based Enhanced Services (CBES) initiative in
the Baltimore MSA as an alterative to the Minority Business Development Center (MBDC)
program. Under the pilot program, the Department of Commerce made an award to the
Empower Baltimore Management Corporation (EBMC)--with the Council for Economic and
Business Opportunity, Inc. (CEBO) as the subrecipient--to help it establish a comprehensive
minority business assistance program in the Baltimore MSA. CEBO was chosen because it is a
Maryland-based nonprofit organization with many years of experience in minority business
development. The original award period was from October 1, 1995, to September 30, 1996 (later
amended to November 30, 1996). MBDA provided $240,469, and the State of Maryland,
Baltimore County, and the City of Baltimore contributed $325,000.

In the opinion of MBDA management, the CBES initiative would enable MBDA, with the
participation of joint venture partners, to deliver management and technical assistance services to
a specific minority business community. In the initial stage, markets targeted for CBES would
undergo a comprehensive community assessment, which would be used to determine the
feasibility of providing services to those markets. If appropriate, the assessment would also be
used to design a coordinated funding and service delivery strategy for the markets, including the
identification of community-based organizations and service providers who would serve as joint
venture partners. If the pilot project succeeded, MBDA planned to identify other markets to
receive services under a nationwide CBES initiative.

       3
        MBDA Order No.750 defines a pilot project as an independent agency project that is
funded to test the result or impact of a specific effort as it relates to minority business
development.

                                                 2
U.S. Department of Commerce                                                   Final Report EDD-9406
Office of Inspector General                                                                June 1998

The CBES pilot project award required CEBO to provide general management and technical
assistance and other business services to minority firms and entrepreneurs in the Baltimore MSA,
using its nonfederal funding. The federal funds would also be used to provide specialized
enhanced management and technical assistance in two areas: finance and capital development;
and marketing and procurement.

MBDA funded the CBES pilot project under a cooperative agreement, instead of under its
normal grant instrument, because MBDA recognized the importance of being substantially
involved in CEBO’s performance. Under Department Administrative Order (DAO) 203-26,
Department of Commerce Grants Administration, and MBDA’s Project Monitoring and
Evaluation Handbook, a cooperative agreement is the proper legal instrument used to provide
financial assistance in a relationship in which substantial departmental involvement is anticipated
during performance of the funded activity.




                                                3
U.S. Department of Commerce                                                  Final Report EDD-9406
Office of Inspector General                                                               June 1998

                          FINDINGS AND RECOMMENDATIONS

MBDA FAILED TO EFFECTIVELY MONITOR
AND ASSESS CEBO’S PERFORMANCE

We found that MBDA officials did not effectively monitor CEBO’s performance. MBDA’s
oversight was essential because the project was funded under a cooperative agreement, which
anticipates substantial MBDA involvement. In the report on our financial and performance audit
of CEBO, we concluded that CEBO did not fully meet its responsibilities to provide quality
business services to Baltimore-area minority-owned businesses.

MBDA’s monitoring and assessment of the pilot project was, in our opinion, ineffective because
MBDA did not fully comply with its own basic written policies and procedures when it did not,
for example, (1) consistently ensure oversight by the designated project monitors and provide the
necessary communication with CEBO officials, (2) prepare and submit quarterly performance
assessment reports, (3) perform source sampling verification of CEBO’s documentation, or (4)
adequately review CEBO’s progress in completing supplemental performance goals established
by senior MBDA management.

DAO 203-26 and the Department of Commerce Financial Assistance Standard Terms and
Conditions provide for the withholding of award payments and the termination of an award for
failure to comply with award provisions. Effective monitoring by MBDA of CEBO’s progress
might have stimulated CEBO to take immediate corrective actions. If CEBO did not take the
necessary corrective actions, MBDA and the Department could have recommended suspension or
termination of the award, and precluded further expenditures.

A.     Lack of Oversight and Communication by MBDA Management

MBDA officials did not assign sufficient staff or effectively monitor the project. The Project
Monitoring and Evaluation Handbook establishes a uniform system to monitor and document the
performance of MBDA-funded organizations, and provides standardized guidance, procedures,
and formats to ensure all MBDA-funded awards are effectively monitored. The Handbook
defines monitoring as “...an Agency tool used to scrutinize and check systematically the
performance and the quality of services provided by funded organizations to their minority
clients.” DAO 203-26, Section 4.04e, requires the designation of a program officer to ensure that
the project is being properly carried out; provide programmatic guidance and technical assistance
to recipients; provide background and recommendations on programmatic issues, such as
amendments to the scope of work or budget; review financial and expenditure reports; and
recommend suspension or termination when appropriate. The cooperative agreement between
MBDA and EBMC indicated that a “federal program officer” would be assigned to the project as
an additional monitor.




                                                4
U.S. Department of Commerce                                                  Final Report EDD-9406
Office of Inspector General                                                               June 1998

MBDA assigned only a project monitor from headquarters and did not assign the federal program
officer. We saw little evidence of the project monitor’s oversight of CEBO’s performance. As a
result, we believe that senior MBDA officials were unaware of the full extent of CEBO’s lack of
performance.

We also found that the lack of effective monitoring caused misunderstanding and confusion
among CEBO officials concerning MBDA’s reporting and documentation requirements. CEBO
officials told us that the relationship with MBDA’s top managers was strained and that the only
positive person on MBDA’s staff was the project monitor. CEBO officials highlight the lack of
communications in the third quarter report to MBDA on their performance under the award:

       “Performance of the (CBES) prototype has been seriously impaired by poor and
       inconsistent communications between MBDA and the subrecipient, from the
       beginning through the current reporting period. Neither party has effectively or
       forcefully expressed its concerns about the intent, design, or conduct of the
       project’s operations to each other. Both parties seemed to assume that each was
       fully cognizant of the roles and expectations that each had of the other for the
       outcome of this project. The result has been confusion regarding by what
       parameters CEBO’s performance would be measured and the documentation and
       reporting requirements for (CBES) performance. As a result, the (CBES) has
       performed a considerable volume of work for its clients that cannot be sufficiently
       documented to be reported as results towards our goals.”

Also, MBDA suggested that CEBO hire a specific consultant to assist in an important merger
under the MBDA-CEBO award. Thereafter, neither the consultant nor MBDA discussed the
status of the merger with CEBO. The consultant communicated only with MBDA about the
status of the merger. The consultant provided his time and attendance reports and schedules of
meetings to CEBO, but did not report his progress or results.

MBDA officials took no substantive action to improve communications. The following excerpt
is from the final narrative report prepared by CEBO:

       “Misunderstanding and confusion regarding MBDA’s reporting and
       documentation requirements (existed). As a result, most of the results reported
       for the first two reporting periods had little or no supporting documentation.
       MBDA never approved its draft reporting requirements for the (CBES) project.”

B.     Lack of MBDA Performance Assessment Reports

MBDA did not meet requirements for preparing performance assessment reports in the Project
Monitoring and Evaluation Handbook and DAO 203-26. MBDA’s handbook requires the
subrecipient to submit quarterly narrative reports to MBDA no later than 30 days after the end of



                                                5
U.S. Department of Commerce                                                   Final Report EDD-9406
Office of Inspector General                                                                June 1998

each quarter. The subrecipient is also required to submit a final narrative report to MBDA no
later than 60 days after the ending date of the award.

DAO 203-26 requires project monitors to review and write assessments of quarterly and final
performance reports submitted by the recipient, and promptly report to the Department’s Office
of Executive Assistance Management on potential and existing problems and/or noncompliance.
MBDA’s handbook also requires project monitors to ensure that narrative reports are scheduled
and received on time from a recipient and to throughly review and evaluate the reports, following
prescribed procedures and guidance. Monitors are to verify all information and data provided by
the recipient. The monitor is also tasked with preparing timely and accurate evaluation feedback
reports and/or correspondence to MBDA’s Office of Operations and the recipient and
subrecipient, including any needed corrective actions.

After CEBO submitted its 1st/2nd Quarter Report in June 1996 and, at a later date, the 3rd
Quarter Report, MBDA drafted a single Desk Assessment/On Site Review Report to evaluate the
recipient’s performance from October 1, 1995 to June 30, 1996. The assessment identified
several areas of noncompliance, such as the failure to properly maintain required records and the
timely submission of complete quarterly reports.

Assessment reports are due to the recipient/subrecipient no later than 30-45 days after receipt of
the quarterly and final narrative reports, depending on whether the MBDA project monitor
conducts an on-site visit. However, MBDA did not, as required, transmit the assessment of the
1st/2nd Quarter Report and the 3rd Quarter Report to EBMC and CEBO for corrective action.
As a result, CEBO officials could not correct program deficiencies because they were not aware
that the MBDA project monitor had noted CEBO’s noncompliance with the cooperative
agreement. Also, MBDA never prepared an assessment of CEBO’s 4th Quarter and Final
Narrative Reports.

C.     Lack of Source Sampling Verifications

MBDA failed to comply with a required procedure in Chapter 3 of the handbook by not
performing source sampling verifications of CEBO’s claims of success in attracting
procurements and financial packages for minority businesses. Source sampling verifications
involve taking a statistical sample of client flies; contacting the source of procurement and
financing by telephone, correspondence, or on-site visit; and requesting concurrence with the
claim. Verifications are required for claims of procurements of $350,000 or more, or financial
packages of $500,000 or more. MBDA guidelines also suggest that project monitors also
conduct source sampling verifications when claimed procurements or financial packages are not
well documented in the recipient’s files. In those cases, a copy of the sampling results may be
provided, at MBDA’s option, to the recipient for inclusion in its files as minimum documentation
of its claims. Source sampling may be done in conjunction with the assessment of the quarterly
report or when monitoring progress at the recipient’s offices.



                                                 6
U.S. Department of Commerce                                                      Final Report EDD-9406
Office of Inspector General                                                                   June 1998

D.     Lack of Review of Supplemental Performance Goals

Six months after the grant period began, senior MBDA management established a set of six
supplemental performance goals for CEBO’s participation in Baltimore empowerment zone
activities. The goals were as follows:

       1.      Involve minority businesses in the empowerment zone’s market development
               activity.

       2.      Identify minority business.

       3.      Target minority entrepreneurs in training and education activities.

       4.      Involve minority entrepreneurs in Fairfield Industrial Park.

       5.      Involve minority entrepreneurs in growth industrial activities.

       6.      Involve minority entrepreneurs in other aspects of Baltimore’s strategic plan.

However, there is insufficient evidence (i.e., lack of performance assessment reports and
verifications) that MBDA effectively monitored and assessed CEBO’s accomplishment of these
goals, which were important components in measuring the project’s success. CEBO officials
recalled receiving the goals from MBDA, but did not remember working to achieve them.

E.     Conclusion

In the past, MBDA has funded a variety of pilot and demonstration projects (also known as
special projects) to (1) provide special services that were not otherwise available, (2) demonstrate
or test unique or innovative approaches and methods for helping minority business persons
succeed in the marketplace as entrepreneurs, or (3) promote minority business formation.
Special projects have usually been funded non-competitively out of the agency’s discretionary
funds.

Clearly, such projects have the potential to be very useful to MBDA and the minority business
enterprise (MBE) community. But too often in prior OIG reports, we have found that MBDA’s
special projects have not successfully enhanced the agency’s efforts to foster and strengthen
minority businesses as envisioned.

This is not to suggest that the only way for a pilot project to be “successful” is to achieve all the
goals and objectives as envisioned. In fact, the opposite may also be true: MBDA and the MBE
community can learn a great deal and clearly benefit in some instances when a pilot project does
not achieve its stated goals and objectives if the project clearly demonstrates (1) how not to do
something or (2) what will not work. But it has been our experience that for any “pilot” project


                                                  7
U.S. Department of Commerce                                                   Final Report EDD-9406
Office of Inspector General                                                                June 1998

to be successful - - whether meeting the stated goals and objectives or not - - it must be closely
monitored and this monitoring must be thoroughly documented. Pilot projects are “special”
projects and hence require “special” monitoring. Funded as a cooperative agreement, MBDA
was, in fact, authorized and expected to have substantial involvement to make this pilot project
succeed. During our audit of this project, however, we did not find the essential documentation
to confirm that MBDA effectively monitored and managed the CBES/CEBO pilot project.

                                    RECOMMENDATIONS

We recommend that the Director, Minority Business Development Agency, take the following
actions with respect to future awards under the CBES initiative (or other pilot projects):

1.     Assign staff with appropriate technical and business expertise who will, at a minimum,
       provide the level of oversight and monitoring outlined in the MBDA Handbook.

2.     Ensure that future pilot projects are effectively assessed and evaluated in a timely and
       thorough manner to ascertain whether to continue the project.

3.     Develop project-specific performance measures and specific reporting requirements to
       reflect the special or pilot nature of the project.

MBDA’s Response to Draft Report and OIG Comments

In its response to the draft report, MBDA acknowledges that its traditional monitoring
procedures are critical to effective management of project awards, and MBDA agreed to
implement the recommendations. MBDA states that it has recently devised a set of clear
performance measurement criteria that it will henceforth apply to all MBDA awards. MBDA
will also require oversight by project staff and adherence to the Project Monitoring Handbook for
future pilot awards.

MBDA asserts that it was actively involved in the management of the project and held continuing
discussions with project staff concerning the quality of operations. In addition, MBDA states
that the project substantially achieved the goals for effective assistance that were established at
the outset of the award. We do not agree with their assertion, however, as we discussed in our
report, issued in September 1997, on EBMC’s and CEBO’s activities. MBDA took exception to
our observation that it did not effectively monitor the project and outlined a number of steps
taken to monitor the project. In our opinion, the steps did not constitute sufficient and effective
project oversight of a pilot project awarded under a cooperative agreement. Such oversight
would have included the consistent communication with CEBO officials, the assessment reports,
and the source sampling verifications. The recommendations stated above are needed to promote
the success of future pilot projects and awards.

We have included MBDA’s complete response to the draft report as an attachment.


                                                 8
